                                                          NATIONAL SCIENCE FOUNDATION
                                                           OFFICE OF INSPECTOR GENERAL
                                                             OFFICE OF INVESTIGATIONS

                                                      CLOSEOUT MEMORANDUM
 I

Case Number: A02100046



         NSF OIG was contacted' with allegations of intellectual theft and plagiarism in a manuscript' submitted by the
         ~ u b j e c twhich
                      ,~    acknowledged NSF support through a CAREER grant.3 The complainant was contacted by phone to
         outline the allegations.

         The submitted manuscript references several prior publications of the complainant. The study described in the
         submitted manuscript is chemically distinct from the systems studied by the complainant, and described in
         publications of the complainant. Research results described in the submitted manuscript include a ultimate
         morphology observed with processing similar to that described in the complainant's publications; the subject makes
         no claim in the submitted manuscript that these are the first observations of this morphology. The submitted
         manuscript by the subject references appropriate prior work of the complainant for the development of such
         morphology. Accordingly, there is no basis for a substantive allegation of intellectual theft.

         The text and figures in the submitted manuscript were examined for plagiarism. The figures in the submitted
         manuscript are distinct from those published by the complainant, dealing with a different chemical system. The
         more schematic figures in the submitted manuscript are distinct from related figures within the papers and
         presentations of the complainant. Text in the submitted manuscript is not plagiarized from publications of the
         complainant.

         The initial allegation included the suggestion that the subject may have plagiarized the complainant's work in the
         subject's CAREER grant. The CAREER proposal of the subject contains a collective reference citation that
         includes several publications of the complainant. No plagiarism of text or figures of the complainant in the
         CAREER proposal was found.

         In summary, the work of the complainant is correctly referenced in the manuscript submitted by the subject. There
         i'k no substantive basis of intellectual theft by the subject. Claims of plagiarism, either in figures or in text, are
         without substance.

         Accordingly, the case is closed.




         ' redacted
          redacted
          redacted


                             Investigator                   Attorney                     Supervisor                      AIGI

     Sign / date      I                           I                            I                             I
